HHS/OIG, Audit - "Review of Pension Costs Claimed for Medicare Reimbursement by Wellmark, Inc.," (A-07-02-03029)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Wellmark,
Inc.," (A-07-02-03029)
February 21, 2003
Complete Text of Report is available in PDF format
(1.1 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The purpose of this review was to determine the allowability of pension costs
claimed for Medicare reimbursement for Fiscal Years (FYs) 1992 through 2000.
For FYs 1992 through 2000, we determined that Wellmark, Inc. (Wellmark) over
claimed Medicare pension costs.  During this period, the allowable Medicare
pension costs were $2,726,878.  However, Wellmark claimed pension costs
of $3,273,931 for Medicare reimbursement.  As a result, Wellmark over claimed
pension costs by $547,053.  This over claim of pension costs was the result
of Wellmark not basing their pension claims on separately calculated pension
costs for the Medicare segment.  We recommended that Wellmark remit $547,053
to the Federal Government.